Appalachian Regional Commission



Inspector General’s
Semiannual Report
To Congress

April 1, 2004 – September 30, 2004
Appalachia as defined in the legislation from which the Appalachian Regional Commission derives its
authority, is a 200,000-square-mile region that follows the spine of the Appalachian Mountains from southern
New York to northern Mississippi. It includes all of West Virginia and parts of twelve other states: Alabama,
Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina,
Tennessee, and Virginia.


                                                      3
4
